CERTIFICATE OF SERVICE
.ta

I, John P. 'Blackmon, ~

Supreme COURT, S.CT. herein, Rule 29, an inmate confined in institution at
Coyote Ridge Correction Center, one copy of the foregoing documents timely
filed with the CLERK of the COURT, submitted by depositing the same in the
institution internal mail system via the United States Postal Service
identified as LEGAL MAIL, in compliance with the "mailbox rule" and "GR
3.1", filing and sending the evening of the 14th day of August, 2021 to
the following address.
COURT CLERK
SUPREME COURT OF THE UNITED STATES
1 First Street N.E.
Washington, DC 20543
CONTENTS: Envelope 01 of 04; WRIT Support
pgs; Habeas, 001 thru 076
of 076 pgs; 9th.Cir.# 19-35883,pgs 001 thru 040 of 275
%

Petitioner affirms and declares under the penalty of perjury under
the laws of the State of Washington that the foregoing is true and
correct, that Petitioner-Appellant has read all the above contents and
documents], this document, knows of the contents, and believes The Same
to be TRUE and CORRECT to Petitioner's knowledge and of it’s creation at
the Coyote Ridge Correction Complex in the County of Franklin, Washington
State; pursuant to RCW 9A.72.085, pursuant to Dickerson v. Wainwrlght, 626
F.2d 1184 (1980) and 28 USC § 1746.
DATED, PROCLAIMED, and SUBMITTED This 14th day of August,2021.

...J
/fohprP. Blackmon, Petitioner-Appellant, PROSE
Petitioner Explicit Invokes ALL UCC /USC Protections

t

